                             CLOSEOUT FOR M92090040




                                                                                        -
     A@-no                      OIG met with a
 panel reviewer and a program officer to discuss the reviewer's concerns about a proposal. The




                                         -
 panel reviewer was ~r                      who is a faculty member in the Department of
                            the University              The program officer was Dr.
                                                                            in the Directorate



 identified as "key personnel" in the proposal. She said that one of these scientists, Dr.
                          claimed to have received a Ph.D. in 1989 from the University of
                          (the University). She alleged that he had not earned this degree and
                                in 1987 afler only one year of graduate school. OIG found that
 a second NSF proposal submitted by the Firm also contained a description of the subject's
                                                          entitled, "
'mf
 academic credentials. In this proposal,
                                  the subject's credentials again inauded the claim that he!h
 received a Ph.D. in 1989 from the University.

         OIG contacted the University and learned that the subject had attended the University
 from 1986-1987. He had not received a Ph.D. degree. Instead he had been awarded a
 certificate for work that was considered more advanced than a Bachelor's degree but less than
 that required for a Master's degree.

         During OIG's review of material for this case, for case M-92090038, and case M-
 92100042, all which concerned allegations against the Firm's employees, OIG uncovered
 sufficient evidence to conduct an on-site fraud investigation against the Firm. This
 investigation resulted in a Justice Department settlement with the Firm. Part of the civil
 settlement was the Justice Department's conclusion that the misrepresentation of academic
 credentials was a serious deviation from accepted practice under NSF's misconduct in science
 regulation. On the basis of the Justice Department's conclusion and settlement we closed this
 case and will take no further action. The press release describing the Justice Department case
 against the Firm is attached.




 cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page 1 of 1
                                                             US ATTORNEY LA                                            m o o .?
                                                               YAO US A'I'Y                                                aaoz




                      NEWS                                                    NORA M. MANELLA
                                                                                 U n i t e d Stares Atrorncy
                     RELEASE                                                  Central D i s t r i c t o f California
               For Izarned i a r c D i s t r i b u t i o n

                                                                                             #96-068
                                                                                             M a r c h 2 5 , 1996

                                                                                             AUSA Hong Dea
                                                                                             (213) 89&2450


                       SCIENTIFIC FRAUD CASE SETTLED FOR $ 2 MILLION

            A scientific research company, Electro-Optek Corporation, of Torrance, Ca.,

setrled a civil fraud suit today filed by the U.S. Government alleging t h a t the
,. k
 . ,-. ..
   i



ebrnpany had madefalse sratements in scientific research proposals and had

subm~ttedfalse billings ro the Government in connection with scientific research

grants, As p a n of rhe settlement agreement, the company's o w n e r s and officers,

William S. Chan and Felicia Chan, of                         San Pedro and Michac! Lee, of Torrance, will

pay rhe government approximarely 5530,000 in cash and will lose almosr $ 1 . 5

million in grants that had been previously awarded to them, announced United

States Attorney Nora M. Manella. The defendants also agreed not to apply for any

future federal funding for three years.

            The Elecrro-Oprek defendanfs were charged with rraud against the

Governmenr's Small Business Innovation Research (SBIR) program. The SBIR

program grants money to deserving small companies for scientific research in order

to promote       small business, encourage scienrific innovation, and assist with the

commercialization of scientific discoveries. The grants are made t h r o u g h 1 1

different federal agencies such as rhe National Science Foundation, the National

Aeronautics and Space Administfalion, and the Deparrment o f Defense. The
                                      US ATTORNEY LA
                                        PA0 US A   m




defendants were accused of knowingly and repeatedly applying for and receiving

SBlR granrs from the agencies for research that had already been completed under

granrs awarded to orher agencies. Defendants were also accused of charging t h e

Government for the cosrs of engineering labor by Felicia Chan and Michaei Lee

when, in fact, they dld not perform engineering work.

      The Goveri-irnenr also uncovered evidence that in t h e i i ' s ~proposals,
                                                                        l~        the

defendants had plagiarized from a scienrific publication and misrepresented the

academic qualifications of one of rheir researchers. The Government concluded

that the practices of the company and its owners seriously de3,+iatedfrom accepted

practices in science or engineering, which constitutes rnlsconduct in science under

the National Science Foundation's regulations.

      The Government had filed its cornplainr against the Electro-Optek defendants

alleging over $1.4 mlllion in damages in 1994. According to Assistant Unired

States Artorney Hong Oea, who handled the case, in one of the first actions of i t s

kind In rhe nation under the Federal Debt Callec~lonProcedures Acr of 1990, he

Government had obtained court orders putting liens on defendants' real estate and

freezing rheir bank accounts so that money could not be withdrawn prior to rrial.

      This case resulted from an investigation led by the Office o f lnspecror

General for the National Science Foundation, and was assisred by r h e Inspector

General's, Office for NASA, the Criminal Investigative Service of t h e Department of

Defense, and t h e UnlTed Srares Marshals Service.
